<html>
<title> - [H.A.S.C. No. 114-127] Air Dominance and The Critical Role of Fifth Generation Fighter Aircraft</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                         [H.A.S.C. No. 114-127]

                     
                     
                     AIR DOMINANCE AND THE CRITICAL

                        ROLE OF FIFTH GENERATION

                            FIGHTER AIRCRAFT

                               __________

                                 HEARING

                               BEFORE THE

              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 18, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ____________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
20-794                        WASHINGTON : 2017                       
_________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f382f301f3c2a2c2b373a332f713c303271">[email&#160;protected]</a>  
                                     
  


              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              NIKI TSONGAS, Massachusetts
CHRISTOPHER P. GIBSON, New York      HENRY C. ``HANK'' JOHNSON, Jr., 
PAUL COOK, California, Vice Chair        Georgia
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             MARC A. VEASEY, Texas
SAM GRAVES, Missouri                 TIMOTHY J. WALZ, Minnesota
MARTHA McSALLY, Arizona              DONALD NORCROSS, New Jersey
STEPHEN KNIGHT, California           RUBEN GALLEGO, Arizona
THOMAS MacARTHUR, New Jersey         MARK TAKAI, Hawaii
WALTER B. JONES, North Carolina      GWEN GRAHAM, Florida
JOE WILSON, South Carolina           SETH MOULTON, Massachusetts
                John Sullivan, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Neve Schadler, Clerk
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Chabot, Hon. Steve, a Representative from Ohio, Chairman, 
  Committee on Small Business....................................     4
Stivers, Hon. Steve, a Representative from Ohio, Committee on 
  Financial Services.............................................     5
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1
Wenstrup, Hon. Brad R., a Representative from Ohio, Subcommittee 
  on Tactical Air and Land Forces................................     3

                               WITNESSES

Harris, Maj Gen Jerry D., USAF, Vice Commander, Air Combat 
  Command, U.S. Air Force........................................     5

                                APPENDIX

Prepared Statements:

    Harris, Maj Gen Jerry D......................................    30
    Turner, Hon. Michael R.......................................    27

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]

. 
    AIR DOMINANCE AND THE CRITICAL ROLE OF FIFTH GENERATION FIGHTER 
                                AIRCRAFT

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                           Washington, DC, Saturday, June 18, 2016.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
the Carney Auditorium, National Museum of the U.S. Air Force, 
1100 Spaatz Street, Dayton, Ohio, Hon. Michael R. Turner 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The hearing will come to order. Good morning. 
This subcommittee meets today to receive testimony on air 
dominance and the critical role of fifth generation fighters.
    We welcome our distinguished witness today, Major General 
Jerry Harris, a Vice Commander of Air Combat Command [ACC], 
United States Air Force. General Harris, we thank you for your 
service, and we look forward to hearing from you and your 
important testimony today.
    This hearing will be the first of two oversight hearings 
the subcommittee plans to hold on air dominance and the 
critical role of fifth generation fighters. Air dominance means 
that friendly aircraft can fly anywhere in enemy territory and 
can also be effective at performing their mission.
    Today's ground and naval forces count on our combat air 
forces to provide air dominance so that movements of troops, 
supplies, weapons, and ammunition can quickly be brought to 
bear in order to win decisively. Here at the National Museum of 
the United States Air Force, I can't think of a more 
appropriate place for us to begin this series on air dominance.
    Those of you who have toured the museum have noted aircraft 
such as the P-51, which was developed in World War II to defeat 
the threat posed by the German forces. The Korean War brought 
new challenges, such as the jet-powered MiG-15, which our Air 
Force answered with the F-86, eventually resulting in a 14-to-1 
kill ratio over North Korean fighter aircraft. The Vietnam War 
saw the advent of radar-guided surface-to-air missiles, which 
resulted in the development of the F-105G Wild Weasel aircraft, 
designed to detect and destroy those missiles which were 
threatening our Nation's capability to achieve and maintain air 
dominance.
    After the Vietnam War, lessons learned and technical 
advances by both our Nation and near-peer adversaries required 
the introduction of new fighter aircraft like the F-14, F-15, 
F-16 and F-18, which we call on today. We call these fourth 
generation fighter aircraft, characterized by improvements in 
maneuverability, radars, sensors, and weapons.
    That fleet of aircraft overwhelmingly achieved air 
dominance in the first Gulf War, Operation Desert Storm. 
Although modified somewhat to keep pace with threats, our 
fighter aircraft inventory today is comprised largely of those 
fourth generation fighter aircraft we used in Operation Desert 
Storm. Like we have seen historically since World War II, our 
adversaries have not stood still in their efforts to counter 
American air dominance since Operation Desert Storm. Integrated 
air defense systems with more powerful radars and more accurate 
and longer-range missiles have been developed. Many of these 
systems are so mobile, they will be much more difficult to 
target. Our adversaries are also developing advanced fifth 
generation aircraft which include the Russian Sukhoi T-50 and 
China's J-20 and J-31.
    To maintain future air dominance, our Nation will require a 
fleet of fifth generation aircraft characterized by a much 
lower radar signature to negate our adversaries' advances in 
radars and radar-guided missiles. Our fifth generation aircraft 
will also need to have machine-to-machine interfaces, giving 
pilots unprecedented situational awareness of where those 
mobile surface-to-air and air-to-air threats are in real time. 
Our air dominance force of the future will need to have the 
capability, capacity, and readiness to meet those future 
challenges and threats.
    The Air Force's current fleet of fifth generation fighter 
aircraft consists of the F-22 and the F-35 Joint Strike 
Fighter. This subcommittee has received briefings from the 
National Air and Space Intelligence Center, or NASIC, located 
here at the Wright-Patterson Air Force Base, on the threats we 
are currently facing, and I am convinced now more than ever 
that we must resource and invest in fifth generation fighter 
capability. The investments we make now must be based on 
capability and countering the threats facing our national 
security.
    We only produced 187 fifth generation F-22 aircraft, but 
that number was 194 aircraft short of the requirement of 381 F-
22s. Unfortunately, the decision to stop F-22 production was a 
strategy driven by budgeting goals rather than one driven by 
the need to obtain a required capability. That is why the House 
Armed Services Committee directed the Secretary of the Air 
Force to provide a report to the congressional defense 
committees on the costs associated with restarting the F-22 
production line to procure those 194 additional F-22s.
    Regarding the F-35 Joint Strike Fighter, the Marine Corps 
achieved initial operational capability [IOC] in the F-35 Joint 
Strike Fighter with 10 aircraft at Marine Corps Air Station 
Yuma, Arizona, last year. Between August and December of this 
year, the Air Force will achieve its initial operational 
capability with the F-35A at Hill Air Force Base in Utah. This 
is good news, and indicates that the F-35 Joint Strike Fighter 
is remaining on cost and schedule. However, we are currently 
not producing F-35s at the rate that we had planned even last 
year. That is why the House passed the National Defense 
Authorization Act [NDAA] for Fiscal Year 2017 by adding 5 F-
35As to meet last year's Air Force F-35A budget plan for 48 
aircraft in fiscal year 2017, an unfunded requirement 
identified by the Air Force Chief of Staff.
    The House bill also added additional F-35Bs and Cs for the 
Navy and Marine Corps, also unfunded requirements identified by 
the Navy and Marine Corps.
    Our Nation has met the challenges for air dominance in the 
past, and I am confident we will do so now and in the future. 
But we must remain committed to providing the resources 
necessary to provide the capability, capacity, and readiness 
necessary to accomplish the critical mission of maintaining air 
dominance.
    Before I begin, I would like to recognize each of the 
members of our panel today and then give them an opportunity to 
also provide an opening statement.
    Dr. Wenstrup from the Cincinnati area serves on the Armed 
Services Committee and on the Intelligence Committee with me. I 
have Representative Chabot, who is also from the Cincinnati 
area and serves as the chair of the Small Business Committee. 
And we have Representative Stivers from Columbus, who also 
serves on the Financial Services Committee and the Rules 
Committee, which is the committee that determines all of the 
business that gets to the House floor.
    I appreciate each of you participating, and it is great 
that we can, with what I would call the powerful Ohio 
delegation, constitute a full field hearing on this very 
important topic.
    And with that, I would like to recognize Dr. Wenstrup.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 27.]

STATEMENT OF HON. BRAD R. WENSTRUP, A REPRESENTATIVE FROM OHIO, 
          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

    Dr. Wenstrup. Well, thank you very much. I appreciate the 
opportunity to be here today, and I want to thank all those 
here at the museum and the Air Force for hosting us. But I 
think it is important that we discuss the maintenance of air 
dominance and the role that the fifth generation fighters are 
playing, especially in comparison to our traditional 
adversaries in the world. It is really a precondition for any 
military victory to be able to control the skies. Our ground 
forces rely on it. They expect it. It affects our ground 
maneuvers. I am an Army guy, so I am speaking from the ground. 
And also as an Army doctor, it affects our MEDEVAC [medical 
evacuation] operations, which is very important to our troops, 
obviously.
    I think that we have enjoyed the dominance in the air, and 
we have to continue that, as well as dominance in air, land, 
sea, cyber, and space that are so important today.
    But you know as we have seen over a decade of war or more, 
we have seen recession and budget constraints, and there are 
concerns over modernization, obviously, and maintenance and 
training for our troops, especially in the air. And it is 
important to note also what our adversaries are doing. So I 
hope that is part of our conversation today as best we can to 
talk about what we need to do to prioritize modernization and 
technology.
    So I enjoy the opportunity to be here today with you, and I 
look forward to your testimony.
    Mr. Turner. Thank you.
    Representative Chabot.

  STATEMENT OF HON. STEVE CHABOT, A REPRESENTATIVE FROM OHIO, 
             CHAIRMAN, COMMITTEE ON SMALL BUSINESS

    Mr. Chabot. Thank you, Mr. Chairman. And thank you for 
holding this subcommittee hearing today at Wright-Patterson Air 
Force Base in your district. I happen to represent Warren 
County now, and a lot of the folks from Warren County work here 
at Wright-Patterson Air Force Base, so we especially appreciate 
that, and thanks for the invitation to be here.
    I would also like to especially thank Major General Harris 
and all those who have served our country or are currently 
serving our country in the military. We appreciate the 
sacrifices that all of you are making for us every day and the 
need to make sure that we provide our men and women on the 
front lines with the very best equipment that is available, 
while also implementing the right strategy to maintain our air 
dominance, and to a great degree that is what this hearing is 
about, is maintaining that air dominance.
    I certainly look forward to hearing Major General Harris 
about the strategy to prepare our Air Force for the future to 
confront the numerous growing threats. I am especially pleased 
that we were able to hold this hearing at Wright-Patterson Air 
Force Base. This base is a vital asset to our military and 
comes with a great tradition and history. My dad, who was a 
World War II veteran, and my mom for many years got their 
health care here at Wright-Patterson Air Force Base. They would 
drive up here from Cincinnati, and it was outstanding care, and 
I certainly appreciate the care that they got here.
    Our family used to come up here for the Dayton Air Show, 
which is, I believe, this weekend----
    Mr. Turner. It is.
    Mr. Chabot [continuing]. Or this week. So we would 
encourage folks who may see this hearing to come here to 
Wright-Patterson Air Force Base and enjoy that experience.
    And of course, Wright-Pat, a lot of the name is the Wright 
brothers, who grew up right here in your hometown of Dayton, 
Ohio. I would like to highly recommend a book that I brought 
along with me, a little prop here today. This showed up on my 
desk about a month ago. We reformed the congressional gift 
laws, and there are bans on certain stuff you can get, but we 
can still get books. And I am kind of a cheapskate, so when I 
get one I virtually always read it, and this one was great. It 
is called ``The Wright Brothers.'' It is by David McCullough. I 
strongly recommend it. That is the only ad I am going to give 
during the course of this hearing.
    But again, Mr. Chairman, I appreciate you holding this 
hearing and yield back my time.
    Mr. Turner. Thank you. Thank you for acknowledging David 
McCullough's book. The Library of Congress actually had Dave 
McCullough in to do a presentation on his book, and I was very 
honored to have Stephen Wright of the Wright family present 
with me. But it was nice to hear him highlight Dayton's role in 
the Wright brothers' success, and it is not just a story being 
told in Dayton because he actually saw that Dayton itself, its 
infrastructure, was critical in the Wright brothers being able 
to achieve what they did. I thought that was certainly a great 
story.
    In representing Steve Stivers, I also want to acknowledge 
that Dr. Wenstrup and Representative Stivers currently serve in 
our Armed Forces. So in addition to serving their country in 
Congress, they also serve in the Armed Forces, and we certainly 
thank you both for that.

 STATEMENT OF HON. STEVE STIVERS, A REPRESENTATIVE FROM OHIO, 
                COMMITTEE ON FINANCIAL SERVICES

    Mr. Stivers. Well, thank you, and thanks for allowing me to 
be here. I want to thank Chairman Turner for holding this 
hearing. You know, he is a true leader on the House Armed 
Services Committee, and especially anything involving airpower, 
he is the go-to guy. I am just excited to be here at Wright-
Pat. I want to thank the folks from Wright-Patterson Air Force 
Base and the National Museum of the Air Force for hosting us 
today. As a 32-year member of the Army and currently a colonel 
in the Ohio Army National Guard, I appreciate what goes on 
above my head when I am wearing the uniform, and air 
superiority is important to everybody on the ground because if 
you control the air, it is easier to control the ground.
    I am looking forward to General Harris' testimony and 
answering our questions, especially with regard to the F-22, F-
35, manning, and resources. So thank you for being here, 
General.
    Again, I want to say thank you to Congressman Turner for 
putting this together and for his leadership in our military to 
make sure that our military is at the cutting edge and can 
defend our own national interests. So, thank you, Congressman 
Turner, for your leadership, and I yield back the balance of my 
time.
    Mr. Turner. Thank you.
    General Harris, before I turn it over to you, I will tell 
you that you are speaking in front of a group that have been 
strong advocates for relieving sequestration that, of course, 
has been a scourge on our military, has made it very difficult 
for us to achieve our advance acquisition programs, and it 
certainly has had a huge impact here on Wright-Patterson Air 
Force Base, where when sequestration went into place over 
12,000 people were furloughed. But you are speaking in front of 
a group that not only is sympathetic but has been actively 
working to set aside sequestration and its effects on your 
work.
    General Harris, we look forward to your message. Thank you.

STATEMENT OF MAJ GEN JERRY D. HARRIS, USAF, VICE COMMANDER, AIR 
                 COMBAT COMMAND, U.S. AIR FORCE

    General Harris. Well, thank you, Chairman Turner and 
Congressmen Wenstrup, Chabot, and Stivers. Thank you two also 
for your service and serving as Congressmen.
    The opportunity to discuss the Air Force capabilities and 
the challenges delivering air superiority is a great venue, and 
we appreciate your time.
    As the Vice Commander of Air Combat Command, I have the 
privilege to oversee 140,000 airmen and civilians. Air Combat 
Command is responsible for organizing, training, and equipping 
the air superiority mission. This mission, as you have heard in 
the opening comments, is instrumental in achieving freedom of 
maneuver in the air, on the land, and on the sea, and it is a 
precondition for success.
    I am grateful the committee shares our interests and that 
we are looking at the advancement of air superiority, and I 
know that your combined concern and collaboration and work with 
us will assist in achieving these results and what they provide 
to the country.
    Air superiority capability remains at the highest level, 
but our near-peer adversaries are closing the gap. The image 
you see with me today over my left shoulder illustrates our F-
35 compared to a Chinese J-31. It depicts our adversaries are 
not only impeccably imitating platform design, but they are 
also achieving comparable capabilities and technology. 
Improvements in the future and investments are certainly 
necessary to continue to outpace the adversaries in advance of 
this crucial mission.
    [The graphic referred to was not available at the time of 
printing.]
    General Harris. My first main point. We recognize the 
absolute imperative need for air superiority and its importance 
in ensuring our national defense. The goal of ACC is to be so 
capable that our enemies choose not to fight. During Operation 
Iraqi Freedom in 2003, the Iraqi Air Force chose to bury their 
MiG-25s rather than face American airpower. That is exactly the 
response we are looking for.
    Our fourth generation fighters continue to effectively 
maintain air superiority in the permissive environment, but 
advanced air defense systems are making that more difficult. 
Our advanced fifth generation fleet have moved into a more 
prominent role of anti-access aerial denial, but continue to be 
in limited numbers, and they are used as a balanced approach 
with our fourth gen [generation] fighters.
    It is critical to rapidly increase our fifth generation 
fleet to ensure that the air superiority capabilities in the 
future are maintained. Along those lines, I would also like to 
thank the team for the five F-35s that were added to our 
upcoming fiscal year purchase.
    Second, our challenges do occur and are maintaining the 
dominant reign in air superiority, but Air Combat Command has a 
vision and a plan to ensure continued success. One of our 
largest, our most expensive to overcome in terms of money, 
manpower, and time, is the size of our force. We have 79 fewer 
fighter squadrons now than we did in Desert Storm, and we are 
more than 500 fighter pilots short on our rolls. We have 
enacted a fighter enterprise redesign to study and actively fix 
this. The Chief of Staff of the Air Force also commissioned Air 
Superiority 2030 Enterprise Capability Collaboration Team--and, 
Chairman, if you're okay, I will refer to that as ECCT from 
here on out--and that is to highly address the contested anti-
access area denial environments of the future.
    This plan highlights the requirements of a family of 
systems for success, and multiple domains will include new air 
superiority fighter aircraft. Agile, efficient acquisition will 
be the critical enabler to attain this budget within a relevant 
timeline. Forty-four years ago was our last combat loss in air-
to-air arena in Vietnam. Yet, near-peer adversaries are working 
towards being capable of ending that winning streak. It is the 
goal of ACC to advance air superiority capabilities to ensure 
that this never happens again.
    I thank you for the invitation to participate in this 
important hearing and to share our ideas on how to advance the 
mission in defense of our Nation. I welcome questions, sir, 
from the chairman and from the members, and ask that my written 
testimony be entered into the record.
    [The prepared statement of General Harris can be found in 
the Appendix on page 30.]
    Mr. Turner. General, thank you.
    There have been recent news reports about the supply chain 
for spare parts for operation of our equipment, where even 
museums have been raided for some of their parts. In fact, as 
we were touring today, one of the members with us said, ``I 
wonder to what extent this museum is in the inventory supply 
chain of spare parts for the Air Force.''
    Could you please speak for a moment on the pressures of 
sequestration, the effects that it has had? And one of the 
items I would also like you to mention is the effect that it 
has had on rated fighter pilot personnel. So both overall what 
you see sequestration doing, but also the concern of our 
ability to maintain air superiority while having the personnel, 
the manning to be able to accomplish it.
    General Harris. Well, thank you, sir. Those are great 
questions. Sequestration is hard on the services, and not just 
the Air Force, but the entire Department [of Defense]. We are 
struggling and we are challenged to achieve the missions 
success that our country expects of us, and that is winning in 
a dominant fashion.
    As much as sequestration has hurt, we need a stable budget 
that we can count on for year after year after year for our 
plans because, as you said, our fifth generation fleet is going 
to look different now from what we planned last year because of 
the changes that we have put in front of us each year. So our 
approach to that is, yes, we have a lot of fourth generation 
airplanes that we have intended to retire. We would like to get 
out of the fourth generation business to a fully fifth 
generation fleet, but we need to do that on a timeline that is 
both fast enough to ensure we have enough fifth generation 
airplanes and not so fast that we outsize our ability to train 
to that mission.
    So we will continue for the foreseeable future to fly 
older, fourth generation airplanes with dwindling parts 
supplies, as you mentioned, where we will have raids to 
museums. Really, we have a boneyard process of airplanes that 
have been retired that are in the desert in Tucson that we are 
able to go out and pull parts from as airplanes as we need to, 
and we can't get them from diminishing manufacturing supplies. 
That will continue to be a problem for us over the next decade 
or two as we fly these older airplanes, yet we try to modernize 
them with newer parts, with upgrades to give us better 
capabilities with that, and that is one of the ways we are 
trying to work through the sequestration, is as a teammate, 
rather than an adversary. That is part of what we need to do 
for our support of the Nation.
    When it comes to the people and the cuts we have had to 
take for the last 5 or 10 years, the Air Force has gotten 
smaller in an attempt to preserve the equipment that we have, 
but we realize we went too far, and we would like to thank 
Congress for the help in growing over the last couple of years, 
well this year and next year, the authorized growth that we 
have had, which allows us to start getting at some of the 
manpower shortages. Fighter pilots are one of those, so we have 
increased our throughput of both Air Education [and] Training 
Command pilot production, and then we are going to add in 2017 
and 2018 additional F-16 training squadrons to produce more 
fighter pilots in general. So that is part of it, and we would 
also like to thank Congress for the increase in the aviation 
career incentive pay, which allows us to retain a few more of 
our experienced pilots, which is important to us also, not just 
developing and bringing new ones on.
    And then finally, sir, maintenance. That is another 
manpower issue we have had where we have had significant cuts 
in our maintainers, and I would say right now the Chief quotes, 
every squadron is 90 percent manned, so a 10 percent shortage. 
So 1 of every 10 people are not in the squadron doing work. 
That applies to our maintainers also. And we are finding that 
getting their expertise back is not easy, so we are trying to 
do some of our easier maintenance work at our training 
locations with contract maintenance so we can continue to 
produce and get the training and readiness that we need. Those 
contracts have to be hired from somewhere, and a lot of the 
times a young maintainer who is on a flight line realizes they 
could do the same thing in a civilian environment and not have 
to deploy and do those things. That is going to be another 
drain on us. So we are working both the pilot side and the 
maintenance side to fix that.
    Mr. Turner. General, the numbers I have indicate that due 
to experience levels and the needs in air superiority 
squadrons, that you may already be over 700 pilots short of 
your projected plans. Give us a feeling as to what that means. 
What does it take to catch up, and what does it mean if we 
continue with that shortfall?
    General Harris. Sir, again, that is a great question. Your 
numbers are right on. We closed out last year over 511 fighter 
pilots short of what we need to be 100 percent manned. We 
expect to close this year out just over 700. So your numbers 
are on target.
    What that means, the impact is that right now we are still 
able to man all of our flying organizations at 100 percent, but 
all of our supporting staff--so my command staff, headquarters 
Air Force, those staffs are manned at about 25 percent, right 
in that vicinity. So every place you should have four fighter 
pilots, you have one doing all of that same work, providing the 
information, and that is impacting our ability to plan and 
foresee things in the future and to do the things that we need 
from a staff perspective.
    How do we fix that is the increased production at the start 
to try and build an additional 100 pilots a year so we can 
reverse the trend of losing more and start building more, and 
we won't be able to fix a 700 shortfall in a year, but we will 
also retain some of the more experienced pilots, which are the 
ones that we have worked 10 or 15 years to develop, and they 
have a lot of combat experience that we would like to retain.
    So we are working on both ends of that spectrum, and we do 
that through job satisfaction, through the pay and incentives 
that they get with that and, to be honest, taking care of their 
families, because that is the most important part is taking 
care of our airmen.
    Mr. Turner. Because just hitting the number, as you just 
described, is not the only issue. It is ensuring that they have 
the experience level. As we look to the operational capability 
of the F-35, we need to make certain that we have the greatest 
capability not just in the aircraft, but also in the pilots 
that are flying them.
    General Harris. Yes, sir. That experience in the F-35, as 
obviously we are building that today, but the way we initially 
put the cadre into the F-35 on both the maintenance and on the 
operational side is to have pilots that are experienced in 
other weapons systems, so they are new on the systems, but they 
are experienced in the overall environment, and we are doing 
the same thing for the maintainers. We are cross-training them. 
Instead of an A-10 or an F-16, they are now working on an F-35, 
and that is an easier transition than taking a brand-new start 
from a technical recruit and building them up, which we will be 
doing that shortly also.
    Mr. Turner. Thank you.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    You know, that graphic there is very telling and obviously 
very concerning and likely a pretty clear indication of their 
ability to tap into what we are doing and our technologies. So 
given where we are right now as you look at that, you could say 
they are pretty much copying the outer structure, and as we 
continue to develop the F-35 and modernize it because things 
are changing so quickly, how do we protect that from getting in 
their hands as well?
    And I don't mean to go into a classified area, but I mean 
let me ask it differently. Are we doing things at a higher 
level of scrutiny that may be able to protect us from them 
getting that information as well?
    General Harris. Yes, sir. The way you present that is right 
on target. We are, but we are required to be transparent, and 
we see that now at the B-21. Where our approach is we want to 
tell Congress everything, and we do, we just do it sometimes in 
classified formats instead of open formats. But I don't think 
between our relationship--I think it also goes back to our 
defense contractors and just our industrial database, and where 
a lot of this is being worked within their own facilities, that 
we are seeing our adversaries catch up with different things.
    As you said, the mold line is exactly right. Those 
airplanes look very similar when you cut a line down the middle 
and you put them together. Clearly, there is some copying going 
on, but we see a lot of our adversaries are still struggling on 
some of the avionics. Their radars may not be as good, and they 
have engines that are not as good as what we are working on. So 
everything that we are putting together and integrating as a 
package, that is what is keeping us ahead of them, and to 
continue to make sure that we are procuring at a number that 
allows us to have the numerical superiority so that they don't 
want to fight us.
    Dr. Wenstrup. Maybe we can feed them some bad information 
in the same process or something along those lines.
    So you talked a little bit, too, sir, about the challenges 
that you face with number of pilots, and you coupled that with 
budget reductions, lesser training opportunities, maintenance 
inadequacies. I mean, these are tough times. We get it. My 
question is how do we--and again, sometimes you are getting 
into classified information. But how do we best get the 
American people to get it and, for that matter, sometimes other 
Members of Congress to really understand the jeopardy that we 
are putting ourselves in?
    General Harris. Well, the reason that we need to keep 
modernizing is so that we have fewer blue losses both in the 
air and on the ground. We are trying to keep our military alive 
and, to be honest, in a war, kill more of their military. That 
is what it boils down to. That is what it is looking at.
    We just completed--the first operational squadron is not 
IOC yet out of Hill, but should be soon--just completed a 
deployment to Hill Air Force Base, and the airplane, while it 
is still immature, is performing fantastically. And how we get 
that information out to the public is very important. Using 
forums like this that are open will help us with that message. 
But that unit deployed, flew sorties, and then flew home. It 
was scheduled and planned to fly 88 sorties with 7 airplanes, 
and flew and actually were effective with 88 sorties. They 
didn't drop a single sortie, and every one of the targets they 
struck they were 100 percent hit rate with precision munitions. 
So I couldn't ask for more of a mature system, let alone an 
immature system, so that was fantastic for us.
    And then because it is F-35 and fifth generation, flying 
where they were, they were teamed up with some fourth 
generation fighters in scenarios that only the F-35 was 
surviving and some of our fourth generation fighters were 
taking losses. So clearly, the airplane is performing the way 
we want, and when I talked with pilots two days ago, Thursday 
at Nellis, they are very pleased with it.
    So we do have modernization work to do. We've got some 
other things we need to integrate, additional weapons systems 
to put into it, but it really is the airplane that we are 
looking for, and we are just trying to procure it at the rate 
that we need.
    Dr. Wenstrup. And certainly that is encouraging in that 
regard, but we are still asking so many to do much more with 
less, and I think that probably makes it tough on your 
retention as well, especially for pilots where there are 
opportunities in the private sector. You are always battling 
that, but maybe even now more so than others. If there are 
things that we can try to do from Congress to turn that tide, 
we would certainly always be interested in knowing what those 
things are.
    But I think that that graphic right there is something that 
the American people need to see to know what we are up against. 
You bring up a very interesting point that we all recall from 
Iraq, where they buried their MiGs, right? They didn't want 
anything to do with us. That is peace through strength. That is 
where we always want to be.
    Anyway, I thank you, and I will yield back.
    Mr. Turner. Representative Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I would like to reiterate something that my colleague, 
Congressman Stivers, said, and that is that I would hope the 
people in the Dayton area realize how aggressive you have been 
in protecting Wright-Patterson Air Force Base, that we are out 
here today. We have had innumerable conversations about 
sequestration and adequate funding for Wright-Pat, et cetera, 
and I know you have done that with our colleagues on both sides 
of the aisle to make sure that this air base gets the support 
that is necessary for it now and into the future.
    My question, General, would be, could you discuss Wright-
Patterson Air Force Base's specific role in the near term and 
in the future in air dominance and the protection of our 
Nation?
    General Harris. Yes, sir. Congressman, Wright-Pat has a 
storied history that everybody is aware of with the birthplace 
of flight and everything that started here. And I will be 
honest, when you look at Wright-Pat as an Air Force base, from 
Air Combat Command I don't see fighters and bombers. What I see 
is that integral cell of all of our Air Force research labs 
that get their genesis from right here. It is the scientists 
and the people at Wright-Patterson Air Force Base that look at 
some of the theories and the advanced initiative that we are 
looking at. They study that across the labs and they task and 
get so much work done for us that allows us to look at what is 
next. If we have fifth gen airplanes that are so capable that 
are being cut, should we now look at sixth gen? We see a lot of 
genesis coming from that.
    The way we treat a weapons system, it starts and ends right 
here at Wright-Pat with our Air Force LCMC [Life Cycle 
Management Center], and it is our life cycle maintenance 
command that, cradle to grave, from an airplane when it first 
starts or, to be honest, any weapons system, because they are 
not all airplanes, we have our command and control to include 
our human design and our development of people, it all starts 
and ends right here. So that is significantly a portion of what 
Wright-Pat does.
    But we have other organizations such as SIMAF [Simulation 
and Analysis Facility] that takes some of our capabilities and 
helps us integrate those and shows us what we can do across the 
spectrum, and that power is central right here.
    Mr. Chabot. Thank you very much, General.
    Next, General, I know we have already referred to the 
graphics up there, but I think the similarities illustrated in 
there are so striking that it says a lot just by looking at the 
picture. Could you discuss, to the extent that you can in a 
non-classified setting, what role cybersecurity warfare has in 
something like this and how seriously we as a nation need to 
take that?
    General Harris. Sir, cybersecurity has a huge role, because 
any information that we are doing in today's age, it is going 
to be electronic, what we are doing back and forth. We have 
ideas on the back of bar napkins, but we are using computers to 
plan, process, and disseminate everything that we are doing. So 
cybersecurity will play a huge role in that, and that can be a 
weakness at times when people are trying to steal things from 
us. So we have a huge defense effort that comes down to every 
single airman, soldier, sailor, and marine to make sure that we 
are doing what we are told to do and using the systems as we 
are supposed to rather than circumventing those, and that is 
not just the military, but that is with our defense contractors 
and everything else.
    We will always have concerns of espionage and other events, 
but how we use these systems in cybersecurity, we can actually 
start monitoring some of that and making sure that we 
understand what is processing and who is doing what on our 
classified systems. That significantly helps us because that is 
the internal threat. It is the unclass [unclassified] side for 
the external threat.
    And in cyber also is getting to play a role as a 
warfighter. It is its own domain from an airman's perspective, 
and we think that air superiority can be helped through cyber. 
There are things that our cyber professionals can do to reduce 
the effectiveness of an adversary's capability, and that is 
something that we are looking at very hard now and working our 
way through for the future.
    Mr. Chabot. Thank you very much, General.
    Chairman, I yield back.
    Mr. Turner. Mr. Stivers.
    Mr. Stivers. Thank you very much.
    Thanks, General, for your testimony. I will quickly just 
comment on something that both Congressman Wenstrup and 
Congressman Chabot brought up.
    When you look at that graphic behind you, it is clear that 
is not by accident. This is a deliberate stealing and copying 
of our technology. We are lucky they cannot perfect it today, 
but we have to do more in cybersecurity. I don't think our 
problem is with our uniformed personnel. I think we have an 
agency problem with a lot of defense contractors who are 
supposed to protect American secrets, and it is not always 
their bottom line they are protecting. It is the taxpayers and 
our own secrets as a country, our technology. So I am going to 
continue to fight to make sure that we raise the level of 
requirements on those contractors to protect our true national 
secrets.
    So, that was more a comment than a question, but I just 
want you to know that the folks in uniform are doing a great 
job, but we need to expect more from our contractors, and there 
are people out across the world trying to steal our technology 
every day, and you can tell by looking at that picture that 
that was no accident. That is stolen technology, and I am sure 
they got it through some cyber stealing. So we need to all, as 
a country, pay attention to that and be ready for the future.
    So I do want to talk about--you answered some questions 
from Congressman Turner--about the shortage of your rated 
pilots at this point. To what role can the Air Force Reserve 
and the Air National Guard help this shortage by either 
allowing some of their pilots to be called to active duty or 
maybe assuming some missions? I know you said you are actually 
shorting your own command staff and other things like that to 
meet the need at this point. Could those organizations 
supplement your staff and other staffs as well to make sure 
that we are able to meet the needs we are supposed to meet?
    General Harris. Well, sir, that is a great question, and to 
be honest, they are already. They are in the exact same 
position we are in. The staff that I talked about that is 25 
percent manned includes my Guard and Reserve teammates. The 55 
fighter squadrons that we have today includes our Guard and 
Reserve teammates. So they are wearing the same uniform we are 
wearing, and they are part of this daily effort with us. So the 
same pressures that are on me are on them. As the airlines are 
hiring now and continue to do more in the future, which is 
always a draw for pilots in any service, they are seeing the 
same vacancy rates that we are.
    As long as we have the ability to continue to use the Guard 
and Reserve, if you take airmen who are going to get out 
regardless of what we do and retain some of them for that 
capacity and that call-up in the future, then I think they are 
hitting the mark and doing exactly what we ask of them. Yet, as 
you know, they are doing so much more because they are 
deploying at a rate that is significantly above what we call 
the strategic reserve, and they are as ready as we are or as 
unready as we are on the active side, and they have been 
fantastic teammates for us.
    Mr. Stivers. Thank you, General.
    With regard to the fourth and fifth generation aircraft, do 
you believe policymakers in Congress should actually dedicate 
resources to upgrading our fourth and fifth generation aircraft 
to make sure that we can maintain our technological edge?
    General Harris. Yes, sir. I would say the team is from 
Congress and OSD's [Office of the Secretary of Defense] 
perspective. We are dedicating resources in that direction. We 
do need to upgrade our fourth generation airplanes to make sure 
they meet the mandates to fly in the airspace and to have the 
required equipment to just be able to fly like any other 
airplane, the airlines, those types of things, since we are 
changing our airspace structure, but then to continue to update 
the defensive and offensive systems that are on those. We are 
making our recommendation as to where those should go because 
10 to 15 years from now, in the contested environments, the 
highly contested environments that we are talking about for air 
superiority, there may not be much room for fourth gen 
airplanes. That is why we are so concerned about giving the 
fifth gen at the rate we need. And, yes, we are still updating 
the F-22 and modernizing it with the systems that go through it 
to make sure that as the threat evolves, so does our aircraft 
to stay in front of that, and we are doing the same thing with 
the F-35.
    So we are currently buying Block 3F-type airplanes, and we 
will soon have a Block 4 that's coming off, and what goes into 
that is part of the ongoing study that we are doing for the 
Defense Department, and then we will look at the funding from 
Congress through the normal processes.
    Mr. Stivers. Thank you.
    I yield back to the chairman.
    Mr. Turner. Thank you.
    Representative Stivers' question is a great passing of the 
baton in the work that I get to do next. As you know, I chair 
the Air and Land Subcommittee, which means I write the portion 
of the bill for the National Defense Authorization Act that 
covers the acquisition programs for the Air Force and the Army. 
We have gone through the House version of the bill, which has 
passed the House floor. The Senate bill is proceeding. There 
are differences between the House bill and the Senate bill, and 
here is my opportunity to ask you questions that can help us in 
conference in advocating on the side of the House bill. That is 
the context in which the question is being given to you.
    Representative Stivers indicated about the modernization of 
the fourth generation and the fifth generation. Although we 
will achieve the F-35, we will have to continue its 
modernization which, because of the manner in which the plane 
operates, the heavy reliance upon electronics, as you 
indicated, is a significant undertaking and its modernization.
    The GAO [Government Accountability Office], which is 
actually based here at Wright-Patterson Air Force Base, 
recommended that the F-35 follow-on modernization be treated as 
a whole separate acquisition program rather than just a 
continuation of the F-35 program. On the House side we were 
able to defeat that measure. There was an amendment offered 
that would have implemented that GAO recommendation, and the 
reason why we defeated it is because we had additional 
information post the recommendation from the GAO, and that 
additional information is that it would result in a 6- to 12-
month delay and over a $13 million cost increase overall in the 
maintenance and the modernization of the F-35.
    Now, General Bogdan has indicated his opposition and that, 
in his assessment, that the delay and the increased costs 
exceed the benefit of having the modernization program being 
treated as a completely separate acquisition program.
    General, do you have a perspective on that?
    General Harris. Well, Chairman, thank you. I do, but part 
of that is outside of ACC's area of expertise. So I will defer 
on the cost and the schedule delays to the JPO [Joint Program 
Office]. I have no doubt that their authenticity is correct. I 
can say that. I suspect they are very accurate with what they 
say because they are the ones closest to it and looking at it.
    My concern as Air Combat Command is if we do that, the 
additional oversight that we are looking at the program will 
cost more, but more importantly it is going to delay the 
upgrades, and it is not minor things. It is upgrades to the 
electronic warfare system. It is radar enhancements. It is new 
weapons integration. It is all of those things that we are 
trying to get to mature this weapons system in a hurry, and any 
delays that we have are going to impact not just the U.S. Air 
Force, but all three services that are flying that and all of 
our partner nations that are part of this funding. They are 
paying their portion for the upgrade for the first time ever in 
any other weapons system. When they bought F-16s, they just 
paid for what the Air Force already paid for, and now they are 
part of that investment. So I would hate to delay that because 
it might put in jeopardy other funding sources.
    So my recommendation is that those capabilities become at 
risk if we delay, so we shouldn't delay.
    Mr. Turner. Thank you. Well another provision that is in 
the House version of the NDAA is looking at the cost of 
restarting the F-22 line. Now, the Air Force Chief of Staff 
recently said that it is not a crazy idea. I will take that as 
an endorsement.
    [Laughter.]
    Mr. Turner. Obviously, there was a significant amount of 
shortfall in the number of F-22s that were produced. That goes 
directly to the capability of your command. Would you please 
give us your view of the issue of the shortfall in the F-22, 
any thoughts that you have on trying to produce additional ones 
to increase your overall command capability? As you know, you 
have--I believe it is 187 have already been produced, a 
shortfall of 194. General.
    General Harris. Chairman, I think we as an Air Force and a 
country would have been better suited to have those additional 
194 airplanes already in the inventory and being participants 
in everything that is going on, and it may have changed some of 
that calculus for what our adversaries are doing. But we just 
completed the 2030 Air Security ECCT study, and those results 
have been out-briefed to the Chief, and he has accepted those. 
One of the recommendations in that was not to restart the F-22 
line.
    The major concern was that the funding that would be 
required would be significant and it would take away from 
additional funding of somewhere else within the service that is 
probably a higher priority, and there is nothing higher 
priority than air superiority. But the concern is that we would 
be 5 to 10 years away from the delivery of the first airplane 
because in 2009 when the line closed, all of those 
subcontractors have moved on to other things. We would have to 
rebuild that base. It is not a short-term fix. And then when we 
started taking delivery of those airplanes, the airplane itself 
would be 20 years old, and we are ready for what is next, and 
that is part of what that study is recommending.
    So as we look at those requirements and the future 
capability, we think it is wiser to keep the investment in the 
F-35 at the production levels that we need for our fifth gen to 
fill in where the gaps were from the F-22, and that will allow 
us to bridge into what is the follow-on to those two platforms.
    Mr. Turner. General, I am aware of that study, of course, 
and our aspect of requesting the study that is in the House 
version of the bill is actually doing a holistic view of what 
would those elements be. Whether it be the F-22 or not, we are 
going to need something more than just the F-35. I know that 
your concerns, as are evident throughout the Air Force, is 
budgetary. You would not want to cannibalize one system in 
order to be able to launch another.
    But I am certain that as we have additional discussions, I 
am going to ask you as we close off our round to give us 
greater detail as you describe the F-35 and the fourth 
generation and how they work together. Having more cards in 
your deck of greater capability I am certain will be important.
    So the study itself gives us greater fidelity on some of 
the things that you identified. It doesn't conclude. It really 
does that holistic assessment of what would it take, which 
could result in an additional--a different airplane. But it 
certainly should look at that, recognizing the gap, that you 
have a gap.
    General Harris. Yes, sir, we do.
    Mr. Turner. What would it take to fill in that gap, and 
what are our overall costs?
    So I appreciate that, and we look forward hopefully to the 
Senate agreeing to getting a greater understanding of what are 
those missing elements to study, and I will just rely on the 
Chief of Staff saying it is not a crazy idea.
    With that, Dr. Wenstrup.
    Dr. Wenstrup. Thank you.
    So a little bit, somewhat off the main topic, but overall 
air superiority. We look at the global threats and potential 
threats and the ability to be a deterrent, as well as to fight 
terrorism and to stay ahead of our traditional adversaries. Do 
you feel that we are positioned forward enough in the world, in 
enough locations? Let me give you an example.
    An Army guy's observation serving in Iraq. I had a chance 
to go up to Sulaymaniyah in Kurdistan for a couple of days 
while I was deployed for a year, and my thought as the war went 
on and as we were being more successful--and ultimately I say 
we won that war; and since, things have changed. We won that 
war, and I thought the Kurdish area would be a great place for 
an air base. It was the only place I went in Iraq where I 
didn't wear armor. We were loved. They love Americans. We would 
be so central in the Middle East. We would have a show of force 
and authority there, and what a great place this would be for 
an air base, and I still think that if the climate was right.
    But my question really comes down to do you think with 
today's threats that we have, are we forward positioned enough 
with our air forces to be comfortable?
    General Harris. Sir, that is a great question. And you and 
I, based on your military background, look at it a little 
differently from our perspective. Your Air Force deploys really 
quick. It doesn't take us weeks and months. It is normally days 
and sometimes hours to get into place to do what we need to do. 
So I balance our ability to be forward with our requirement to 
defend our homeland and to be home where we get some of the 
best training, because when I am forward at those bases, I kind 
of have to limit my training because a small country that loves 
us as an organization, as an American people, I still have to 
train outside their borders, and I don't want to give up things 
to my adversary where they can see what I am doing on a regular 
basis.
    So we have some strengths for that. And on that argument, 
if you look at my active duty F-15 placements right now, if you 
are an active duty F-15 maintainer, F-15C maintainer or pilot, 
your only places are Japan and the United Kingdom. We have no 
continental U.S. for those to go. So if that is what you do, 
you are either overseas at one or the other locations, or you 
are flying with one of our Guard units. It is flying them here 
in the continental U.S. for homeland defense mission, or you 
are on a staff. And again, I only have 25 percent on my staff.
    So it is not easy already. We are fairly forward deployed. 
Yes, there is that deterrent, that ``fight tonight'' effort, 
and that applies both to the Pacific and Europe, and we are 
just as concerned with everything going on in Europe. So we 
started ``Rapid Raptor'' deployments to where overnight 
airplanes show up and nobody knows that they are coming other 
than the host nation that has invited us and the training that 
we do, and we are seeing that from a lot of our new NATO [North 
Atlantic Treaty Organization] allies, saying come more often 
and stay longer, and we do understand that. But we do have to 
have that balance between being able to train and have that 
white space at home to also be ready for.
    Dr. Wenstrup. Yes, and we are seeing movement by the 
Chinese, as you know, without going into too much detail, that 
is concerning. So I am sure that that is something that you 
have to watch on a constant basis.
    So as we are talking about fourth and fifth generation, one 
of the things that I think is Members of Congress, and the 
military as well, our role is to always be looking towards the 
future, what do things look like 20 years from now. So I am 
just curious how we are doing on sixth generation.
    General Harris. We are doing well, at an unclassified 
level.
    Dr. Wenstrup. Very good. That is all I need to hear.
    And then I guess one more question I do have is specific to 
Wright-Patterson. So how important is the role of Wright-
Patterson in Ohio for the future of our air dominance?
    General Harris. I am impressed every time I come to Wright-
Patterson. The people I see around on the base, it is just a--
the density of those smart scientists that are warrior 
technicians that have come here, they really seed our labs 
across America. So we come here from an airman's perspective 
and try to give that operational flavor so that, as we look at 
the things that they are studying and doing at Wright-Pat, how 
that might apply to us. We actually have some of those, that 25 
percent of fighter pilots. We have some of those on the staffs 
here at Wright-Pat, and AFMC [Air Force Materiel Command], just 
to help General Pawlikowski and the team out so that we know 
what can bridge and what is not going to go anywhere from what 
they are looking at.
    Quite often they will say, hey, this is a success, we just 
don't know how to use it, and you get that in the hands of an 
operator or a maintainer and they say I know what to do with 
that. So how we work together with it, a lot of that happens 
right here at Wright-Pat, and that is kind of the focus of 
where we get a lot of our research.
    Dr. Wenstrup. Very good. Thank you.
    I yield back.
    Mr. Turner. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    General, I am also on the Foreign Affairs Committee and 
chaired the Middle East and Asia Committees in the past, and we 
have had innumerable hearings with respect to Asia, and China 
in particular, and how aggressive they have been of late, in 
the air and on the sea and building islands, and now 
militarizing them, much to the chagrin of much of our allies in 
the region, from Japan to South Korea to the Philippines, 
Taiwan, and countries that we have better and better relations 
with, like Vietnam now. They are all very, very concerned.
    Do you believe that the current planned F-35 squadrons are 
adequate to maintain a forcible presence in the Pacific theater 
while maintaining our current commitments in Europe and the 
Middle East, for example? And with current force projections, 
do you believe that we will be able to maintain our air 
superiority with respect to China over the next decade and into 
the future?
    General Harris. Congressman, that is a great question 
because the next decade really is of concern. If we are 
acquiring 48 F-35s a year, China will have more fifth gen 
fighters 15 to 20 years from now than we have based in the 
Pacific, and that is including what the Marines are doing in 
Japan and what the Air Force intends to do with future basing 
and where we are going in the Pacific.
    So in a ``fight tonight'' scenario, they may actually 
outnumber us with airplanes like that than we are. That does go 
back to that forward deployed question that we spoke about 
earlier. What is in theater does matter, and both in the 
Pacific and Europe we look to make sure we've got sufficient to 
deter, but that we've also got ready forces at home that can 
reinforce, and we are concerned.
    The number of F-35s to procure a year is probably closer to 
60. The program of record says we should be at 80 a year, and 
that would allow us to have the numbers there sooner before 
China can get their fifth generation airplanes fully 
operational. We think that would deter that conflict, but I 
don't think it is going to stop them from still building any 
islands, and we will continue our freedom of navigation 
exercises in the air and on the sea to deter and make sure they 
recognize what we consider international laws and norms to be.
    Mr. Chabot. Thank you. Thank you, General.
    One area we haven't touched on really yet this morning, and 
since this will be my final question I will at least touch on 
it, and that is with the increased reliance of unmanned aerial 
vehicles, UAVs or drones, how do you see the integration of 
UAVs with the planned strategic roles of our F-35s, for 
example, and our other assets? How does this all fit in, and 
how important is it?
    General Harris. Well, if we looked at today's UAVs we would 
probably think of it from a fourth generation perspective, the 
way they are being employed with a manned cockpit somewhere 
back in the U.S. or wherever they happen to be flying. And 
again, we are doing that in our Guard, Reserve, and our Active, 
teaming up with somebody that is forward deployed.
    I think, though, as we look at the air superiority study 
that we have been talking about, part of that does talk about 
UAV teaming and doing that in more of an autonomous fashion. We 
have that machine-to-machine communication so that while we 
still have people in the loop, they are not having to 
necessarily do as much as they are doing today of physical 
flying. So maybe then one crew can fly five UAVs, or one manned 
aircraft can have a dozen UAVs flying off of it and taking 
commands and signals from it.
    So we are looking at that from that air superiority study, 
which would make this much more defensible, and the risks that 
you can take with an unmanned system, or at least no person in 
the forward of the airplane, can actually help you with that if 
somebody is back flying from somewhere else. That is a 
different risk calculus, and we are willing to do that to 
achieve our Nation's goals.
    So that is part of that study, and that is part of the 
family system. So it is not going to be a single silver bullet 
that solves any one of these. I think it will be a follow-on to 
the F-22 and the F-35, not just the 15 and 16. But it will also 
be improvements to our current UAVs that will all come together 
with our cyber and the assets that we bring from space to make 
this a solvable problem.
    Mr. Chabot. Thank you, General.
    Mr. Chairman, yielding back, I would just like to say I 
think this has really been a great hearing. The information 
that we have received from the general here is very important 
and helpful to us, and we will take it back to our colleagues. 
Thank you.
    Mr. Turner. Thank you.
    Representative Stivers.
    Mr. Stivers. Thank you.
    I would like to follow up on the last question that Mr. 
Chabot just asked. General, could you talk about the importance 
of voice and data communication in future air dominance?
    General Harris. Very important, and right now voice 
communication is a lot of times our primary mode of 
communication. Our fifth gen and our fourth gen don't talk as 
well together as we would like to, machine to machine. So we 
are actually using the aircrew voice to get the information 
back and forth, and, I would be honest, that is probably third 
generation.
    So we are working on a couple of projects and efforts to 
make sure that we can get communication and awareness that the 
fifth gen airplanes bring down to the fourth gen fleet, to our 
command and control, to everything else, so that all of our 
sensors that are so far forward and doing great work because 
they can penetrate air defenses, come back and provide that 
information to everybody. So that makes it critically 
important, and we have a couple of different paths we are 
working on.
    Not all of it is based in the air. Some of it will be land-
based, some of it will be space-based. So it is a family of 
systems, again, to get to that solution.
    Mr. Stivers. Thank you.
    General, could you talk about the impact any reduction in 
the 1,763 aircraft requirement would have on ACC's capability 
and capacity and readiness to meet the requirements for fifth 
generation fighter aircraft to assume air dominance in support 
of the national military strategy?
    General Harris. Congressman, it is hard to talk about that 
reduction because 1,763, if we are producing, let's say, 60 a 
year, that is still buying F-35s out in the 2030s. So I am less 
concerned about the overall number and the rate that we are 
acquiring them to make sure we can deter and defeat, if 
necessary, our adversaries in the next decade or so. If our 
further study in sixth gen says that we are able to develop and 
come up with a family of systems that allows us to stop 
production early on the F-35 and move into something else, I 
think we are willing to do that. But we don't know what that 
number is at this point, so I would rather not speculate.
    Mr. Stivers. Thank you.
    General, I really appreciate your testimony today, and I 
just again want to commend Chairman Turner for his leadership 
on the Tactical Air and Land Subcommittee and what he has done 
to protect Wright-Pat and build a consensus in the Ohio 
delegation to help further our national security and make sure 
that we can be a major player right here in Ohio through 
Wright-Pat and the things that are happening at Wright-Pat. I 
want to just comment and add to the comments that all my 
colleagues have said.
    Wright-Patterson is a very important strategic asset for 
the United States, not just for the United States Air Force, 
but for the United States. To the thousands of men and women 
who are working here at this base to help ensure that you can 
provide air superiority, General, I just wanted to say thank 
you to them, and thank you to Congressman Turner for making 
sure that he supports them and our national military the way he 
is doing. I wanted to acknowledge his leadership.
    I yield back, Mr. Chairman.
    Mr. Turner. Thank you.
    General, I appreciate your comments to what Dr. Wenstrup 
said and Representative Stivers said. You focused on 
highlighting what Wright-Patterson Air Force Base does, and I 
just want to underscore one aspect of the debate that we always 
have in Congress with respect to personnel and how it affects 
Wright-Patterson Air Force Base.
    The issue of civilian career personnel continues to be a 
ball batted around in debates in Congress. But as you know by 
what you just described, the engineers and the scientists here 
at Wright-Patterson Air Force Base are largely going to be 
career civilian that populate NASIC, our National Air and Space 
Intelligence Center, and are doing the assessments on what our 
adversaries like China are doing and what we need to make 
certain we put in your hands to scope what the threat is.
    The Air Force Institute of Technology. Of course, there we 
have the graduate school here at Wright-Patterson Air Force 
Base populated by professors and assistants and those that make 
that system work, largely again going to be career civilian. 
The Air Force research labs, the engineers and scientists that 
really try to define what is the possible, because here at 
Wright-Pat it is not just the battlefields of today, which are 
also a focus, but it is also the battlefields of tomorrow, what 
can we push in our boundaries of knowledge, just as the Wright 
brothers did, to make certain you have that air dominance.
    And of course, all of the acquisition support that we have 
here that is necessary for contract management, the oversight 
that we expect our government to do, is done largely by career 
civilians. So thank you for highlighting the fact that they 
play an important role in your combat command and ensuring our 
dominance.
    I want to go back to that topic again of dominance. You in 
the beginning foreshadowed the issue of fifth generation and 
fourth generation flying together. You also foreshadowed that 
our intent to retire fourth generation, as we look to 2030, we 
are going to be in a blended formation. Could you please give 
us a description, if you will, where people can understand how 
does fourth and fifth generation work together, and how is it 
going to ensure our capability as we look to that time period 
when fourth generation may be retired?
    General Harris. Yes, sir, in an unclassified format. The 
air superiority approach, because that is what we are primarily 
talking about from this, with the fifth and fourth gen working 
together, can get sticky pretty quick. So in not so much an air 
superiority role, but in today's fight, when the F-22s fly over 
Syria, their sensors see so many things and share that across 
the spectrum through our command and control efforts, that 
fourth gen fighters that would not otherwise have been aware 
have much more situational awareness, and that is what fifth 
gen brings to the fight.
    In an air superiority type of a role, we expect the fifth 
gen to be the only things that can initially penetrate, go in 
and make some of the initial kills or reduce an enemy's IAD 
[integrated air defense], which will then allow fourth 
generation to even participate in the battle, and if that is a 
long distance away, it may take days and weeks to get air 
superiority. If it is something near, it just may take multiple 
sorties over a day or two period.
    But if it is truly in a highly contested environment, 
that's going to include an integrated air defense where it is 
both aircraft and SAMs [surface-to-air missiles] and the entire 
package that an adversary brings against us, fourth generation 
may not have much play in that for a while until the air 
superiority portion is gamed and our adversary recognizes that 
this is important to us, we are not going to give up, and we 
are going to continue to risk our fifth gen aircraft, our 
people, the things that we need to do to get the Nation's 
tasking done, and then fourth generation will be able to step 
up and participate at that point.
    That is our concern, the blended effort. We are leaning 
more towards fifth gen as quick as we can.
    Mr. Turner. So in other words, fifth generation can go into 
a contested environment and clear the way so the threat level 
is lowered so that fourth generation can go in and continue to 
fight in the contested environment.
    General Harris. Yes, sir.
    Mr. Turner. Excellent. Thank you.
    Dr. Wenstrup, closing questions, comments?
    Dr. Wenstrup. I did have one other question. You talked 
about 700 pilots short from where you would like to be. So 
where does the Air Guard come into play with that, and is their 
role helpful in that regard?
    General Harris. Yes, sir. When I say 700 pilots, that is 
fighter pilots. We have shortages in other weapons systems 
also. But the Air Guard, they are seeing similar vacancies, 
although not as fast as the Air Force is. They are probably 
only a couple of years behind us. To be honest, they are on the 
leading edge of the airline hiring because several of those 
have already taken those job applications based on what they 
are doing but continue to fly for the Guard, which is exactly 
what we are looking for on a part-time basis.
    Where we are finding concern in the Guard is that they are 
deploying so much to support places that the Active Duty can't 
go to because of our readiness and our OPTEMPO [operational 
tempo] already, that someone's saying I was deploying this much 
when I was on Active, why would I expect to do that now when I 
am in the Guard? We find that they are getting some pressures 
that they haven't seen in decades before based on their OPTEMPO 
also. I think they are in the same boat as we are.
    Dr. Wenstrup. Okay. Thank you.
    So in conclusion, I want to thank you, General, for being 
here today and for everyone here accommodating us so well. It 
has been said by my colleagues here the relentless nature of 
Chairman Turner and his concern for this base, and for our Air 
Force and our military in general. I can speak to it firsthand, 
serving on two committees with him, and on his subcommittee, 
and I thank him for his leadership in that regard.
    Thank you. I yield back.
    Mr. Turner. Well, I want to thank all my fellow members for 
attending. As they've described the aspect of protecting 
Wright-Patterson Air Force Base, it is both a game of advocacy 
and a game of whack-a-mole. Every now and then, we have to make 
sure that we do defend the assets that are here, but we also 
advocate for them, and every member here has been a part of 
that, and I greatly appreciate their support. Thank you for 
taking your Saturday to come out and do this.
    But I want to assure you that it is not just a Saturday 
morning that these gentlemen have given. They are part of what 
Ohio deploys in order to protect Wright-Patterson Air Force 
Base and to advance the Air Force.
    General, thank you for your service and thank you for your 
team giving their Saturday, and also for the team from the Air 
and Land Subcommittee. We appreciate them traveling here to be 
able to do this. General Harris, we hope to welcome you back to 
Wright-Patterson Air Force Base and the assets that are here. 
But thank you for your leadership, and thank you for giving us 
this insight.
    As you know, from your position, your answers are not just 
informative; they actually translate into policy. We have to 
take them back and place them in the legislative decisionmaking 
and in debates that help us ensure that you have what you need. 
So, thank you for helping us today.
    General Harris. Sure.
    Mr. Turner. With that, we will be adjourned.
    [Whereupon, at 11:14 a.m., the subcommittee was adjourned.]
    
=======================================================================

                           A P P E N D I X

                             June 18, 2016
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 18, 2016

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
